<html>
<title> - NOMINATION OF IRVIN CHARLES McCULLOUGH III TO BE INSPECTOR GENERAL OF THE INTELLIGENCE COMMUNITY</title>
<body><pre>[Senate Hearing 112-309]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-309
 
                             NOMINATION OF
                      IRVIN CHARLES McCULLOUGH III
                                 TO BE
                        INSPECTOR GENERAL OF THE
                         INTELLIGENCE COMMUNITY

=======================================================================

                                HEARING

                               BEFORE THE

                    SELECT COMMITTEE ON INTELLIGENCE

                                 OF THE

                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 22, 2011

                               __________

      Printed for the use of the Select Committee on Intelligence


        Available via the World Wide Web: http://www.fdsys.gov





                  U.S. GOVERNMENT PRINTING OFFICE
72-745                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                    SELECT COMMITTEE ON INTELLIGENCE

           [Established by S. Res. 400, 94th Cong., 2d Sess.]

                 DIANNE FEINSTEIN, California, Chairman
                SAXBY CHAMBLISS, Georgia, Vice Chairman

JOHN D. ROCKEFELLER IV, West         OLYMPIA J. SNOWE, Maine
    Virginia                         RICHARD BURR, North Carolina
RON WYDEN, Oregon                    JAMES E. RISCH, Idaho
BARBARA A. MIKULSKI, Maryland        DANIEL COATS, Indiana
BILL NELSON, Florida                 ROY BLUNT, Missouri
KENT CONRAD, North Dakota            MARCO RUBIO, Florida
MARK UDALL, Colorado
MARK WARNER, Virginia
                     HARRY REID, Nevada, Ex Officio
                 MITCH McCONNELL, Kentucky, Ex Officio
                    CARL LEVIN, Michigan, Ex Officio
                    JOHN McCAIN, Arizona, Ex Officio
                              ----------                              
                     David Grannis, Staff Director
            Martha Scott Poindexter, Minority Staff Director
                    Kathleen P. McGhee, Chief Clerk
                                CONTENTS

                              ----------                              

                           SEPTEMBER 22, 2011

                           OPENING STATEMENTS

Feinstein, Hon. Dianne, Chairman, a U.S. Senator from California.     1
Chambliss, Hon. Saxby, Vice Chairman, a U.S. Senator from Georgia     2

                                WITNESS

McCullough III, Irwin Charles, Intelligence Community Inspector 
  General-Designate..............................................     3
    Prepared statement...........................................     5

                         SUPPLEMENTAL MATERIAL

Questionnaire for Completion by Presidential Nominees............    20
Prehearing Questions and Responses...............................    34
Letter from Don W. Fox, Office of Government Ethics, Dated August 
  23, 2011, to Senator Dianne Feinstein Transmitting Public 
  Financial Disclosure Report....................................    53


                      NOMINATION OF IRVIN CHARLES



  McCULLOUGH III TO BE INSPECTOR GENERAL OF THE INTELLIGENCE COMMUNITY

                              ----------                              


                      THURSDAY, SEPTEMBER 22, 2011

                                       U.S. Senate,
                          Select Committee on Intelligence,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m., in 
Room SD-138, Dirksen Senate Office Building, the Honorable 
Dianne Feinstein (Chairman of the Committee) presiding.
    Committee Members Present: Senators Feinstein, Wyden, Udall 
of Colorado, Chambliss, Snowe, Blunt, and Rubio.

 OPENING STATEMENT OF HON. DIANNE FEINSTEIN, CHAIRMAN, A U.S. 
                    SENATOR FROM CALIFORNIA

    Chairman Feinstein. The Committee will come to order.
    We meet today in public. So, ladies and gentlemen, you are 
our public today. This doesn't happen very often, so it's often 
a special moment when it does. And of course this moment is to 
consider the President's nomination of Charles McCullough to be 
the first Inspector General of the Intelligence Community.
    I want to welcome him here. I want to congratulate you on 
this nomination. I had the pleasure to meet with you, as I'm 
sure other Members have as well, and know that you are superbly 
qualified for this job.
    The position of Inspector General of the Intelligence 
Community, or IC/IG, as the techies would say, was created in 
the 2010 intelligence authorization bill after several years of 
trying to have the position enacted. I'd like to particularly 
recognize Senator Snowe. She was the drafter of the provision 
creating this position and the driving force behind it. And so 
I'm delighted that you're here today, Olympia.
    The reason to have a community-wide Inspector General is 
similar to the reason to have a Director of National 
Intelligence. The IG is intended to review and conduct 
oversight on intelligence activities across the 16 agencies 
that make up what we call the Intelligence Community, as well 
as the Office of the Director of National Intelligence, the 
DNI, instead of having every agency and their IG operate within 
its own stovepipe.
    So this further helps unify the community and break down 
stovepipes.
    We have seen over recent years how the agencies have worked 
much more closely together. That's improved performance, it's 
reduced duplication. But it also makes the oversight work of an 
individual agency's Inspector General more difficult.
    So this Committee felt the need to create an Inspector 
General with authority and oversight of the entire community 
and one who could look at issues that cut right across the 
community. This view was reinforced by the relative weakness of 
the Inspector General position in the Office of the DNI that 
was authorized as part of the Intelligence Reform Act of 2004.
    Until now, the DNI has had the power to hire and fire his 
Inspector General. In public testimony from 2009, the first IG 
in the DNI's office, Edward McGuire, said his office was, ``not 
independent vis-a-vis the DNI, because he can put us out of 
business. This is a substantial weakness,'' he said, ``in our 
ability to do work.''
    So Congress created the Inspector General of the 
Intelligence Community, to be confirmed by the Senate and given 
the statutory authorities and independence of other Senate-
confirmed Inspectors General. The IG still operates under the 
supervision and direction of the DNI, but he has substantially 
more independence and authority under this new legislation.
    So it's our hope and our expectation that, if you are 
confirmed, Mr. McCullough--and I believe you will be--you will 
make full use of these authorities--I think that's really 
important--to ensure that the nation's intelligence activities 
are legal, that they are keeping with relevant guidance and 
direction, and that there is not waste, fraud, or abuse in the 
community.
    It's a big, big job, I think, of all of the IGs maybe the 
biggest, because this is a difficult community to surveil, so 
to speak.
    So I would just like to welcome you. I'd like to welcome 
your family here. And I'd like to recognize the distinguished 
Ranking Member, with whom I have the great pleasure of working 
with.

  OPENING STATEMENT OF HON. SAXBY CHAMBLISS, VICE CHAIRMAN, A 
                   U.S. SENATOR FROM GEORGIA

    Vice Chairman Chambliss. Well, thanks very much, Madam 
Chairman, and likewise.
    Mr. McCullough, congratulations on your nomination to be 
the first Inspector General of the Intelligence Community. You 
have an impressive background in both intelligence and law 
enforcement, which I believe will serve you well in your new 
assignment.
    I also welcome your family here today and thank them for 
their support of you, which means their commitment to public 
service.
    Now, in many instances Inspectors General are the eyes and 
ears of agency leadership throughout the government and can be 
for Congress as well. Through critical oversight of executive 
branch operations, they can provide useful assessments of 
performance and identify areas for improvement.
    These assessments are even more important now, given the 
current state of the federal budget. It is clear the old ways 
of doing business are not sustainable, especially when it comes 
to expensive programs that seem to give us little in return.
    As we conduct our own oversight and look for wise cuts 
across national intelligence program budgets, this Committee 
will seek your opinion on programs in need of oversight, 
scaling back, or that can be cut altogether.
    We will also look for your input when it comes to promoting 
better accountability across the community. We are fortunate to 
have many solid performers among our Intelligence Community 
professionals, but there are occasions when those who exercise 
bad judgment or perform poorly must be held accountable.
    My sense is that the federal government does a mediocre job 
in removing underperformers, but the IC can and must do better.
    As the IC's Inspector General, much of your work will of 
necessity be classified. This means there will most often not 
be a public airing of your assessments. As a result, Congress 
and the American people must have full confidence that your 
findings are objective, independent, and entirely supported by 
the facts. We expect, too, that you will stay within your 
statutory mandate in promoting efficiency and preventing or 
detecting fraud, waste, and abuse.
    Mr. McCullough, you and I had a very good meeting earlier 
this week and I'm very confident that you're a person of high 
integrity and very well qualified for this job, and I look 
forward to further dialoguing with you today.
    Thanks, Madam Chair.
    Chairman Feinstein. Thank you, Mr. Vice Chairman.
    I just received a note that, Mr. McCullough, you're 
prepared to introduce your family before proceeding with your 
remarks. Would you do so, please?

    STATEMENT OF IRVIN CHARLES McCULLOUGH III, INTELLIGENCE 
             COMMUNITY INSPECTOR GENERAL-DESIGNATE

    Mr. McCullough. That's fine. Thank you, Madam Chairman.
    Behind me I have my mother, Barbara Jackson, and my 
stepfather, Terry Jackson, my son Chas and my daughter 
Victoria. And right here beside me is my wife of 18 years, 
Kathalyn. And I have my sister here, Anise, and I've got some 
very good friends of mine from throughout my career, my 
colleagues.
    Chairman Feinstein. Well, thank you, and welcome all of 
you. And I hope you're very proud of your father.
    So please go ahead, Mr. McCullough.
    Mr. McCullough. Madam Chairman, Mr. Vice Chairman, and 
distinguished members of the Committee, thank you for giving me 
the opportunity to appear before you today as you consider my 
nomination to be the Inspector General for the Intelligence 
Community.
    I especially want to thank Senator Snowe, who has been a 
steadfast champion for the establishment of an IC/IG for quite 
some time.
    I am deeply honored to have been nominated by the President 
for this position, and I am grateful for the support and 
encouragement I have received from Director Clapper.
    Over the past 20 years I have been privileged to serve in a 
leadership capacity in law enforcement, legal and intelligence 
positions. I'm currently serving on detail from the National 
Security Agency as the Deputy Inspector General at the Office 
of the Director of National Intelligence.
    Prior to that, I spent eight years as the Assistant IG for 
Investigations at the National Security Agency, where I 
supervised investigations involving intelligence programs and 
personnel around the world.
    I served as the senior counsel for law enforcement and 
intelligence at the U.S. Treasury Department, and I spent 10 
years as a special agent of the FBI handling foreign 
counterintelligence, counterterrorism, violent crime, white 
collar crime, narcotics, and personnel misconduct matters.
    As a result of these experiences, I am well grounded in 
intelligence policy, management, and operations.
    The FY 2010 Intelligence Authorization Act provides the IC/
IG with the statutory authority to conduct IC-wide audits, 
investigations, and inspections. If confirmed, my primary goal 
will be to identify and address systemic deficiencies that cut 
across agency missions in order to positively impact IC-wide 
economies and efficiencies.
    Madam Chairman, I recognize that if I am confirmed you will 
have high expectations for my performance in this regard, 
especially given the difficult budget climate now facing the IC 
and the larger federal government. I want to express my 
commitment, if confirmed, to fully support the IC/IG's 
notification and reporting obligations to the intelligence 
committees.
    I am under no illusion that fulfilling the IC-wide 
responsibilities of this new position will be easy. I fully 
comprehend this job will take and require a great amount of 
independence, as well as diplomacy, discretion, and judgment. 
If confirmed, I pledge to do my very best to earn your trust 
and confidence.
    Thank you again for giving me the opportunity to appear 
before you today. I look forward to your questions.
    [The prepared ststement of Mr. McCullough III follows:]
    [GRAPHIC] [TIFF OMITTED] 72745.001
    
    [GRAPHIC] [TIFF OMITTED] 72745.002
    
    [GRAPHIC] [TIFF OMITTED] 72745.003
    
    Chairman Feinstein. Thank you very much, Mr. McCullough.
    When we visited the other day, we talked a little bit about 
contractors, and I wanted to ask you a few questions. I think 
this Committee believes that there are many too many 
contractors really doing inherently governmental work within 
the Intelligence Community. I mean, literally Dana Priest says 
in her book, 250,000. So it's hard to tell, you know, really 
what's fact and what's fiction.
    But I want to ask you how you view the use of contractors 
in the Intelligence Community.
    Mr. McCullough. Well, I think that that topic, the use of 
contractors and how much that's costing the IC in these tight 
budget times, and what they're doing in terms of whether or not 
they're performing inherently governmental functions is an 
extremely appropriate topic for this new position and this new 
office to undertake. I would envision and IC-wide review 
looking specifically at those things, and I think that would be 
a very appropriate topic to consider very strongly as we go 
forward with our work planning.
    Chairman Feinstein. How would you define ``inherently 
governmental functions''?
    Mr. McCullough. Well, it's normally defined as the 
decisionmaking ability in the government--if a contractor is 
performing certain functions that would normally be reserved 
for a government employee, such as sitting on a source-
selection panel or doing something that we would normally 
expect a government employee to be employed doing.
    There are certain functions that OMB has listed, actually, 
and there are certain guidelines and regulations which actually 
set out lists of inherently governmental functions. And so we 
would want to check that and crosscheck that across the IC to 
see how endemic that was.
    Chairman Feinstein. One last question for me. In the event 
that you requested assistance from the DNI and the DNI 
determined against your assessment, that a particular audit or 
investigation should not proceed, what subsequent steps, if 
any, would you take?
    Mr. McCullough. Well, I would discuss that with the DNI. 
The DNI has been extremely supportive and encouraging with 
respect to this position. The statute itself, which created the 
IC/IG position does contain a provision which allows the DNI to 
impede or restrict an IG activity, but it's for a very narrow 
reason. The reason has to be a national security equity.
    So I would speak with the DNI about that first, but I would 
not hesitate to interact with this Committee and inform this 
Committee. If he sought to actually activate the procedures in 
the statute, it would require the Committee's involvement and I 
would follow through.
    Chairman Feinstein. I think that's very important and I'm 
very glad to hear that, that you would alert our Committee to 
that fact.
    Mr. McCullough. Yes, ma'am.
    Chairman Feinstein. Before recognizing the Vice Chairman, 
there are five standard questions. They just require a yes or 
no answer. If I might read them, if you would just respond and 
we'll get you on the record.
    Do you agree to appear before the Committee here or in 
other venues when invited?
    Mr. McCullough. Yes.
    Chairman Feinstein. If confirmed, do you agree to send 
officials from the Office of the Inspector General of the 
Intelligence Community to appear before the Committee and 
designated staff when invited?
    Mr. McCullough. Yes.
    Chairman Feinstein. Do you agree to provide documents or 
any other materials requested by the Committee in order for it 
to carry out its oversight and legislative responsibilities?
    Mr. McCullough. Yes.
    Chairman Feinstein. Will you ensure that the Office of the 
Inspector General of the Intelligence Community provides such 
material to the Committee when requested?
    Mr. McCullough. Yes.
    Chairman Feinstein. Do you agree to inform and fully brief, 
to the fullest extent possible, all members of this Committee 
of the activities of the Office of the Inspector General of the 
Intelligence Community, rather than only the Chairman and Vice 
Chairman?
    Mr. McCullough. Yes.
    Chairman Feinstein. Thank you.
    Mr. Vice Chairman.
    Vice Chairman Chambliss. Thanks very much, Madam Chair.
    Mr. McCullough, let me just add to what the Chairman said. 
If you ever--without suggesting you might be so inclined to--
come to this Committee and voice an independent opinion 
relative to an issue, I think you'll find we'll not only be 
receptive, but we'll be extremely supportive of you in that 
regard.
    In the wake of the September 11 attacks, there was a 
concerted effort to remove the barriers that prevented 
intelligence information from being shared fully within the 
Intelligence Community. Part of this effort involved statutory 
changes in the USA PATRIOT Act, which I understand you were 
involved in drafting while you were at the Department of 
Treasury.
    I'm concerned, especially after the Christmas Day attempted 
bombing, that some of the old stovepipes may be reappearing. 
You and I talked a little bit about this, but for the record I 
want to ask you: Has the Intelligence Community fully addressed 
the issues that concerned you most when the PATRIOT Act was 
drafted? And secondly, where do you think improvements need to 
be made? And is there a role for you as the Intelligence 
Community's Inspector General in this effort, as well as in the 
information-sharing effort?
    Mr. McCullough. Well, Mr. Vice Chair, thank you for that 
question.
    Yes, I concur that the old stovepipes that were there, from 
my perspective, are still there to a certain extent. This is 
something from an information-sharing standpoint that would be 
just an excellent and appropriate review, well within the ambit 
of the IC/IG's authorities and responsibilities pursuant to the 
statute.
    So I would certainly think that that would be something 
that we would strongly consider to add to our work plan very 
early. And, from my own experience, I've seen that even within 
the IC/IG community, we tend to criticize other government 
entities for being stovepipe, and we're fairly stovepiped 
ourselves. And so that's one thing I want to do with the IC/IG 
community also. I'm going to be dealing with that same issue in 
the IG community in terms of the integration of these various 
local IGs, the element IGs.
    Vice Chairman Chambliss. Is the PATRIOT Act working the way 
you intended for it to work?
    Mr. McCullough. Well, I think we have to look at that. 
Again, that would be a good topic, I think, for an audit or an 
inspection or review as to whether or not compliance with the 
PATRIOT Act, whether there were impediments to the PATRIOT Act 
and what those impediments were, and whether or not we can make 
recommendations to diminish them.
    Vice Chairman Chambliss. Okay. Unauthorized disclosures of 
classified information continue to be a big problem for the 
Intelligence Community, especially within Washington. While 
WikiLeaks garnered a lot of attention because of its scope, 
there continue to be other equally significant leaks of 
classified information, many of which go unpunished.
    Yet efforts by Congress to give the Intelligence Community 
more authority for addressing leaks of classified information 
have not been supported by the administration. Is there an 
appropriate role for inspectors general within the Intelligence 
Community in addressing the ongoing problem of leaks of 
classified information? And, based on your legal and law 
enforcement experience, what do you believe is the best way to 
deter leaks?
    Mr. McCullough. Well, the answer to the first question, Mr. 
Vice Chairman, is I do believe there's a very appropriate role 
for the IC/IG with respect to compromises or potential 
compromises and WikiLeaks-type situations. I think that there 
tends to be a thinking that this is only a security, a 
counterintelligence, or a law enforcement issue, but clearly 
this is something which the fundamental tenets of IG work are 
fraud, waste, and abuse, and this would be an abuse issue.
    And so I think from an IG perspective the greatest efficacy 
that we could offer would be focusing on access controls, 
focusing on what controls are in place to allow people to get 
to information, and again doing that on an IC-wide basis to 
determine whether or not there were systemic vulnerabilities 
and risks out there that we could devise recommendations to 
apply across the IC. And I would want to work very closely with 
you and with this Committee in pursuing that.
    Vice Chairman Chambliss. As you look at that--and I would 
hope that maybe that would be one of your first priorities--
this Committee has had dialogue with the DNI, with Director 
Mueller, with the various Directors of the CIA about this 
issue, and trying to find the one case that we can use as an 
example from a prosecutorial standpoint has been very 
difficult. We've talked with the Attorney General about it at 
length also.
    So I would urge you, coming in as somewhat of an 
independent voice to take a look at this. If you have some 
recommendations, I assure you again this Committee will be very 
receptive to hearing that because we're very cognizant of the 
fact that there is too much information getting out that 
shouldn't be getting out.
    And again, we appreciate your experience, your willingness 
to serve in public enterprises, and we look forward to getting 
you confirmed.
    Thank you very much.
    Mr. McCullough. Thank you, Mr. Vice Chairman.
    Chairman Feinstein. Thank you, Mr. Vice Chairman.
    The list is Wyden, Snowe, Udall, Blunt, and Rubio.
    Senator Wyden.
    Senator Wyden. Thank you, Madam Chair.
    Mr. McCullough, earlier this year, Senator Udall and I 
proposed directing an Inspector General to review the 
implementation of the FISA Amendments Act of 2008 to examine 
what kind of impact the law has had on the privacy of law-
abiding Americans.
    Now, it seems to me that, if confirmed as the Inspector 
General, you could use an array of analytical techniques to 
provide a realistic assessment, a defensible assessment on the 
impact the law had on the privacy of law-abiding Americans.
    What's your reaction to that?
    Mr. McCullough. Well, if I am confirmed, I envision the IC/
IG as having a very strong intelligence oversight function--
intelligence oversight in the sense that we're looking at 
potential 12333 issues, FISA issues, regulatory issues from the 
elements, the implementing directives in the elements.
    And so I think that's a very proper role for the IC/IG and 
I would anticipate that we would have the expertise, and I 
anticipate obtaining the expertise to fulfill that function.
    Senator Wyden. So you would say--and of course, these are 
always resource issues and you have to consider those kinds of 
factors--this is an area where you believe you could add some 
real value and some substantive analysis. Would that be fair to 
say?
    Mr. McCullough. Yes, it would, Senator.
    Senator Wyden. Okay. One other question, if I might, on the 
declassification issue, another area where Senator Udall and I 
have spent a lot of time. One of my concerns here is that it 
often seems that just plain old bureaucratic inertia gets in 
the way of declassifying documents that the public really has a 
right to know. In other words, it is information that's 
relevant to public debate in this country that doesn't 
compromise our national security.
    And the Public Interest Declassification Board pretty much 
agrees with that take. They issued a report several years ago, 
and I'll just quote from the report. They said, ``The latitude 
given departments and agencies to declassify information when 
the public interest in disclosure outweighs the risk of damage 
is not being seriously exercised.'' They basically said, you 
know, here's an opportunity to basically cut through the 
bureaucratic inertia, ensure that the public right to know is 
being satisfied without compromising national security.
    I'd like to hear your thoughts about what you think could 
be done to make the classification system work better.
    Mr. McCullough. Well, I think, if I'm confirmed and we 
stand up the IC/IG office, again, this is another topic, 
classification and the application of the classification 
guidelines IC-wide, that would be ripe for review. I think this 
is something that would clearly fall under the purview of the 
IC/IG pursuant to the statute and would be in the IC/IG's 
bailiwick. And I think doing it IC-wide, we would have the 
resources and the wherewithal to do that.
    Senator Wyden. I'm encouraged you want to take it on 
because I think it really comes at us two ways. I mean, the 
point of classifying documents is to protect national security. 
And often it seems that documents are classified to protect 
somebody's political security.
    And, by the way, this has gone on on both sides of the 
aisle for a long time to come. But the point that the Public 
Interest Declassification Board made with respect to this 
particular report is sometimes just plain old bureaucratic 
inertia that keeps documents that the public has a right to 
know from getting out.
    And the fact that you're willing to dig into this and try 
to make the system work better, to try to strike the proper 
balance between matters that do have to be kept secret in order 
to protect the safety of our people, and at the same time 
getting everything out possible, that the public has a right to 
know about, that doesn't compromise national security, 
encourages me.
    I'm glad you're willing to take it on. We've heard good 
things about you and I'm looking forward to supporting you when 
Chair Feinstein moves ahead with the vote.
    Thank you very much.
    Chairman Feinstein. Thank you, Senator.
    Senator Snowe.
    Senator Snowe. Thank you, Madam Chair, and I welcome you, 
Mr. McCullough. It's been seven years, so thank you for being 
here. And I want to thank the Chair and the Vice Chair and the 
members of this Committee for creating the IC/IG, because it is 
so crucial when we started this process back in 2004 to insert 
it in the original legislation when we were overhauling the 
Intelligence Community and the significant reform.
    You come with a comprehensive, extensive background in the 
area of Inspector General. And I think that that's going to 
add, I think, tremendous confidence and credibility to the 
process as well, especially as you're paving the way as the 
first Inspector General across the Intelligence Community.
    And your primary mission, obviously, is going to affect 
across agency accountability and management cooperation and 
collaboration. That's going to be infinitely important, as the 
Vice Chair was referring to, in terms of breaking down those 
barriers and the parochialism, the stovepipe, the failure to 
inform, as we discovered in the aftermath of the Christmas Day 
bombing, and what needed to happen and didn't happen. So you 
can be more on the front lines of preventing and averting any 
future crisis.
    Secondly, it's a question as well in terms of The 
Washington Post series that was done last year concerning the 
fact that the Intelligence Community had become too unwieldy, 
too large, too costly, too many employees, many of which we 
couldn't even discern the numbers.
    So I mentioned this article to Director Clapper during the 
course of his nomination in 2010 in terms of this is precisely 
how I envisioned the role of IC/IG in terms of evaluating and 
being able to assess many of the issues across the agencies in 
terms of cost, size, and also the failure to share information.
    I know in your prehearing questions you were asked about 
how you conduct an investigation inspection audit. And you 
mentioned that there's no single modus operandi that would be 
employed across the board. How will you maintain the 
complementary relationship, ensure that an individual agency 
will not assert itself in such a way to deter your ability to 
investigate, inspect, or to review any aspects, because 
Director Clapper said at the time, in response to my question, 
there will be a complementary relationship because there won't 
be significant resources.
    In fact, it would be limited resources. So how would your 
approach work in this instance so that it doesn't conflict, but 
at the same time you have to override, perhaps, even the 
interest of other Inspectors General?
    Mr. McCullough. My reading of the statute is that the IC/IG 
will have authority to conduct audits, inspections, 
investigations for any matters IC-wide which are under the 
responsibility and control of the DNI. I believe that the plain 
meaning of that is a fairly broad meaning. So I would 
certainly, as the IC/IG, if I'm confirmed, I will also be the 
chair of the IC forum, which includes all of the element IGs. 
And I'm going to work with those IGs.
    And we've had these issues pop up in the past. There has 
been some effort to integrate this group in the past. I would 
work with those IGs in the forum to try to resolve that at that 
level so that if there were any issues about us coming in to do 
a review, we could iron those out at the forum, and actually 
the statute requires that. It requires some coordination level, 
as an advisory body at the forum.
    But there will really not be a--I don't think that I see 
this as a one-size-fits-all situation. So there may be 
investigations where we have to go in as a singular entity into 
an agency and conduct an investigation because of the 
circumstances of it.
    There may be other situations where we would create sort of 
a task force type concept, where we'd be leading a review 
within the IC and we would have members from each of the 
component IGs on our task force for this particular topic.
    And I do believe that there's receptivity to that. I know 
and have worked with, for quite some time, the other IGs in the 
IC and I do believe there's receptivity to that kind of 
construct.
    Senator Snowe. Do you visualize the IC/IG forum to be the 
mechanism by which you resolve these disputes?
    Mr. McCullough. I would. I think that it would be the 
exception that we couldn't, frankly. This is a group of IGs 
from the Intelligence Community. And so my hope would be and my 
anticipation is that these types of disputes we'll be able to 
work out, or these types of negotiations we'll be able to work 
out within the forum.
    Senator Snowe. You have notification requirements in here, 
in the event that you do decide to override, if there's 
overlapping jurisdiction and you decide to do an investigation 
within a specific agency. So are those notifications 
sufficient? Are there limitations to that as far as it is laid 
out in the statute?
    Mr. McCullough. Senator, from my read of them, they appear 
to be sufficient now. It may be that when we stand the office 
up and start operating that there may be something else we need 
legislatively. And I certainly wouldn't hesitate to keep a 
close dialogue with you and with the Committee and approach you 
if that was the case.
    Senator Snowe. All right. I thank you.
    Thank you, Mr. McCullough. I look forward to working with 
you.
    Chairman Feinstein. Thank you very much, Senator Snowe.
    Senator Udall.
    Senator Udall. Thank you, Madam Chair.
    Good afternoon. It's a treat to see your family here. Thank 
you, Mr. McCullough, for your service to the country in so many 
different capacities and agencies over the years. You clearly 
have been able to operate in both the civilian and the military 
sectors which will, I think, prove to be a very valuable set of 
experiences, if you're confirmed.
    I want to just follow up with Senator Wyden's questions 
related to the FISA Amendments Act and our interest in learning 
as to its effects on Americans' privacy. As Senator Wyden 
explained, we've been told that it isn't ``reasonably 
possible'' to count the number of Americans whose 
communications have been reviewed under this law.
    So he and I propose that the Inspector General review the 
FISA Amendments Act to examine its impact on Americans' 
privacy. Senator Wyden asked you earlier whether a review of 
this kind is something you would be able to do in your role. I 
want to thank you for your positive response and I look forward 
to working with Senator Wyden and you on this issue. So I did 
want to have a follow-up conversation with you on this matter.
    Which IG do you think would be best positioned to conduct 
such an audit? Would it be you or the DOJ IG, the NSA IG, 
another IG, or perhaps a combination of IGs?
    Mr. McCullough. It would depend. It would depend upon how 
we decide to scope the review, whether it was an audit, whether 
it was an inspection, whether there were reasons to actually 
conduct an investigation, perhaps, and would depend upon how 
broad the review was going to be.
    So it may be something, again, that the IC/IG, if I was 
confirmed as the IC/IG, that I would need to send a team in 
there as the objective outside force coming in to take a look 
at this. Or it may be, if we scoped it in such a way that it's 
going to be a very narrow set of objectives that we're seeking 
in the review, that we wouldn't need to do it ourselves, but 
that we would actually marshal forces within the IC and 
appoint, again, a sort of a task force team to look at this.
    But the topic is something that I think is very appropriate 
for the IC/IG to look at and I really believe it falls within 
the ambit of the statute.
    Senator Udall. I appreciate hearing that, and the 
distinction between an audit and inspection investigation, the 
scoping process, very legitimate. I know Senator Wyden and I 
look forward to working with you as that proceeds.
    Let me go back to FISA. As you know, the FISA Amendments 
Act of 2008 required the inspectors general of elements of the 
IC that participated in the President's surveillance program to 
conduct a review of that program, tracing its origins and 
implementation, analyzing legal questions about its 
development.
    This is an example of the IC/IGs working together on a 
crosscutting issue, but doing so at the behest of Congress. I 
think Senator Chambliss asked about the PATRIOT Act. But with 
regard to the Foreign Intelligence Surveillance Act, especially 
because of the crosscutting nature of the issues, I assume that 
you intend to review these issues carefully in your new role. 
Is that a fair assumption?
    Mr. McCullough. Certainly we're going to go through, as we 
stand up the new office, a very robust work planning process. 
And my intention for that work plan process is to coordinate 
closely with you and with this Committee.
    And so those are the types of issues, IC-wide reviews, that 
we're going to be looking for, IC-wide deficiencies, if there 
are things like that, misapplications going on.
    That is something that we're going to want to take a very 
strong look at.
    Senator Udall. The joint IG review that I referenced, that 
review was driven by statute. To what degree do you intend to 
be forward-leaning in terms of taking on such reviews under 
your own initiative as opposed to being prompted by Congress to 
do so?
    Mr. McCullough. Well, certainly we would ask for 
congressional input, but I would go through the IG forum--
again, this is a dual hat; as the IC/IG you're also the chair 
of the IC forum--and I would liase with my counterparts and my 
colleagues at the IC/IG forum. There's value in obtaining their 
input on this. And they all have their own individual work 
plans also. So it's a matter of coordinating resources.
    And, again, this would be a risk-based type of analysis 
that we would go through, looking for areas of greatest risk, 
looking for areas of greatest vulnerability, looking for areas 
of greatest potential economic savings and returns, 
redundancies, and things like that.
    So that's the type of analysis we would do, and this would 
be something that would certainly be considered in that 
analysis.
    Senator Udall. Thank you for that answer.
    I'd like, Madam Chair, to submit a further question for the 
record on the independence of the IG, but I would add one final 
comment. I think Senator Chambliss talked about stovepiping, 
and I think he was implying, if not directly suggesting, that 
when you do your job and do it as effectively as I think we all 
believe you will do it, that stovepiping can be broken down in 
the process of what you do, as well as what the heads of the 
various Intelligence Community agencies do.
    So I think you could play a key role in that regard as 
well. And in fact, function can follow form. Sometimes we've 
got to come after the form to make sure that it fits what we 
need to do to gather this intelligence and then disseminate it.
    Mr. McCullough. Yes, Senator.
    Senator Udall. But thanks again for your commitment to 
serve. And it's great to see your wonderful family here.
    Mr. McCullough. Thank you.
    Senator Udall. Thank you, Madam Chair.
    Chairman Feinstein. Thank you.
    Senator Blunt.
    Senator Blunt. Thank you, Chairman.
    Just a couple of questions, Mr. McCullough. On the IC 
Inspector Generals forum, you'll chair that? Is that how that 
will work?
    Mr. McCullough. Yes, sir.
    Senator Blunt. Will you vote on that as well?
    Mr. McCullough. Yes. Yes.
    Senator Blunt. And what happens to the current group you're 
working with, the ODNI IG? Does that continue also as a 
functioning group or does the new IC/IG supplant, replace that?
    Mr. McCullough. The amendment to Title 50, which created 
the IC/IG, contains a provision that the authority which is in 
Section 8(k), I believe, of the Inspector General Act, is 
repealed. And Section 8(k) is the authority which called for 
the existence and allowed the existence of the ODNI IG
    So when the IC/IG is confirmed, the law says that the ODNI 
IG is going to--the authority for that office will have been 
repealed.
    Senator Blunt. Right. Okay. And having worked in the ODNI 
IG for a while now, you mentioned redundancies among the 
agencies. Do you see some potential to eliminate redundancies 
among the IG community in the IC?
    Mr. McCullough. Yes, Senator, I absolutely do. And I've 
said to other people during this process that we are a group, 
the IC/IG forum, we are a group that many of our reports 
criticize others for being stovepipe and we're a fairly 
stovepiped group ourselves.
    So that's one of my primary goals, is to integrate this 
group and to do that by bringing--this group has working 
groups, sort of subcommittees--to bring those subcommittees 
together to do this risk-based analysis, but not just doing it 
agency by agency. We're looking at the forest, not just the 
trees.
    So to encourage all of these IGs' offices to look for IC-
wide deficiencies, the systemic deficiencies that we can 
develop IC-wide recommendations to address.
    Senator Blunt. And waste, duplication, that sort of thing, 
would be one of your major targets in making the IG an IG for 
the IG community that you're dealing with as well.
    Mr. McCullough. Yes, Senator. Fraud, waste, and abuse are 
the fundamental tenets of the IG's office, and certainly that's 
where we would start. And just about everything we've talked 
about here today falls within one of those categories, whether 
it's fraud, waste, abuse, or mismanagement.
    Senator Blunt. Those are exactly the answers I hoped you 
had and the mission I hope you're on, and I wish you well with 
it. And thank you and your family for the commitment you've all 
made to public service for a long time now.
    Mr. McCullough. Thank you, Senator.
    Chairman Feinstein. Thank you very much, Mr. Blunt.
    It would be my intention, unless someone has additional 
questions, to end it with this round. We'll leave the record 
open for 48 hours. Hopefully, you'll respond to any questions 
very quickly.
    We will aim a markup for our first meeting, assuming we 
come back a week from Monday, and it's an assumption because we 
don't know if we're going to be out yet. But the Tuesday 
meeting, as a first order of business we will mark this up and 
get it out of our Committee.
    So I want to thank you, and I want to thank your family for 
being here. And I think he's a shoe-in.
    [Laughter.]
    In any event, thank you. And the hearing is adjourned.
    [Whereupon, at 3:19 p.m., the Committee adjourned.]
                         Supplemental Material
[GRAPHIC] [TIFF OMITTED] 72745.004

[GRAPHIC] [TIFF OMITTED] 72745.005

[GRAPHIC] [TIFF OMITTED] 72745.006

[GRAPHIC] [TIFF OMITTED] 72745.007

[GRAPHIC] [TIFF OMITTED] 72745.008

[GRAPHIC] [TIFF OMITTED] 72745.009

[GRAPHIC] [TIFF OMITTED] 72745.010

[GRAPHIC] [TIFF OMITTED] 72745.011

[GRAPHIC] [TIFF OMITTED] 72745.012

[GRAPHIC] [TIFF OMITTED] 72745.013

[GRAPHIC] [TIFF OMITTED] 72745.014

[GRAPHIC] [TIFF OMITTED] 72745.015

[GRAPHIC] [TIFF OMITTED] 72745.016

[GRAPHIC] [TIFF OMITTED] 72745.017

[GRAPHIC] [TIFF OMITTED] 72745.018

[GRAPHIC] [TIFF OMITTED] 72745.019

[GRAPHIC] [TIFF OMITTED] 72745.020

[GRAPHIC] [TIFF OMITTED] 72745.021

[GRAPHIC] [TIFF OMITTED] 72745.022

[GRAPHIC] [TIFF OMITTED] 72745.023

[GRAPHIC] [TIFF OMITTED] 72745.024

[GRAPHIC] [TIFF OMITTED] 72745.025

[GRAPHIC] [TIFF OMITTED] 72745.026

[GRAPHIC] [TIFF OMITTED] 72745.027

[GRAPHIC] [TIFF OMITTED] 72745.028

[GRAPHIC] [TIFF OMITTED] 72745.029

[GRAPHIC] [TIFF OMITTED] 72745.030

[GRAPHIC] [TIFF OMITTED] 72745.031

[GRAPHIC] [TIFF OMITTED] 72745.032

[GRAPHIC] [TIFF OMITTED] 72745.033

[GRAPHIC] [TIFF OMITTED] 72745.034

[GRAPHIC] [TIFF OMITTED] 72745.035

[GRAPHIC] [TIFF OMITTED] 72745.036

[GRAPHIC] [TIFF OMITTED] 72745.037

[GRAPHIC] [TIFF OMITTED] 72745.038

[GRAPHIC] [TIFF OMITTED] 72745.039

[GRAPHIC] [TIFF OMITTED] 72745.040

[GRAPHIC] [TIFF OMITTED] 72745.041

[GRAPHIC] [TIFF OMITTED] 72745.042

  

                                  <all>

</pre></body></html>
